U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 17, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Andre G. Dewberry v. United States of America,
S.Ct. No. 19-1052

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 20,
2020, and placed on the docket on February 24, 2020. The government's response is due on
March 25, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 24, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1052
DEWBERRY, ANDRE G.
USA

LISA S. BLATT
WILLIAMS & CONNOLLY LLP
725 TWELFTH STREET, NW
WASHINGTON, DC 20005
202-434-5000
LBLATT@WC.COM
CHRISTOPHER S. SWIECICKI
SWIECICKI & MUSKETT, LLC
16100 CHESTERFIELD PARKWAY WEST
SUITE 308
CHESTERFIELD, MO 63017

